4
I

@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-992

GREG SKIPPER, WARDEN,
Petitioner,
v.
CURTIS JEROME BYRD,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S BRIEF IN
OPPOSITION TO THE PETITION FOR WRIT OF CERTIORARI in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
6848 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of April, 2020.
IT am duly authorized under the laws of the State of Nebraska to administer oaths.

: o_ WOTARY-State of lsbraska 1h b l,
- Leas Ondrao- & c
ly Comm. Exp. September §, 2028

: Affiant

      

 

Notary Public
